No.
IN THE
SUPREME COURT OF THE UNITED STATES

TODD HUGHES— PETITIONER

vs.
STATE OF FLORIDA — RESPONDENT(S)
PROOF OF SERVICE
I. TODD HUGHES . do swear or declare that on this date, November 2, 2020 , as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on
each party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:

OFFICE OF THE ATTORNEY GENERAL, STATE OF FLORIDA
3507 E FRONTAGE ROAD, SUITE 200
TAMPA, FL 33607-7013
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 2, 2020.

Todd Hughes, DC #166098
Suwannee Correctional Institution Annex
5964 U.S. Hwy 90
Live Oak, Fla. 32060

29

